       (-       """                                                                              . "

.t ,

                                 DEPARTMENT OF HEALTH &. HUMAN SERVICES                                    Office of Inspector General


            """''''0
                                   JJ
                                             199 ,
                                                                                                           MemoranduJ1
                       Date

                                                   row

                       From
                                 Inspector General

                       Subject   OIG Management Advisory Report:           Boarder Babies"    (OEI- 03-89-01541)

                                 James O. Mason, M.

                                 Assistant Secreta

                                   for Health



                                 PUROSE
                                 Th management adviory report descn"bes the extent of the boarder babies
                                 problem in severa cities around the country.

                                 BACKGROUN

                                 A boarder baby is an inant who remais in the hospita even though medicay
                                 ready for discharge. Babies stay in the hospita due to legal complications,
                                 questions about the parents ' abilty to cae for the babies , and a lack of cae
                                 alternatives.

                                 We obtaied new inormation on boarder babies as a by-product of a broader
                                 inspection on crck babies underten durig the last quaer of 1989.
                                 conducted site intervews with over 200 respondents in 12 metropolita are
                                 Chcago, Fort Wayne, Los Angeles, Miam, New York City, Newark, Oakand,
                                 Phiadelphia, Phoeni San Fracisco , Tacoma, and Washigton, D. C. We selected
                                 these sites for a perspectie on how cities of varg size and location are afected
                                 by crack baby births.

                                 Respondents included chid welfare admitrators and caeworkers, hospital social
                                 servces sta, priate agency representatives , foster parents, and            te and loca
                                 offcials who had a workig  knowledge of crack       babies       and boarder babies.
                                 alo intervewed a    number of national expert.

                                 FIINGS
                                 Boarder babies usua have serious medca prblems

                                 Most boarder babies show feta exposure        to drgs. Independent studies and an
                                 expert intervewed estiate about 80 percent are        drg exposed; overwhelmgly the
                                 drg is cocaine, or "crack"
Page 2 - James O. Mason , M.

   1988 one- day census in Philadelphia hospitals indicated 55 boarder babies awaiting
placement. Six of these babies were listed as healthy. Fort-three had primary problems
such as congestive heart failure , seizures , Down s syndrome , respiratory problems , and
failure to thrive. Although many of these babies may have been drug exposed , only six
were boarder babies based solely on their prenatal cocaine exposure.

There are complex lega     obstacles to placement

Legal abandonment must be proven before placement can be made. Once a child has
been declared a dependent of the court , it can take 12 to 18 months to begin the process
of terminating parental rights. While most boarder babies are placed during this period
the situation is complicated by other laws.

 For example , respondents in Washington ,     D. C. report that temporary emergency care
 orders signed by the mother expire in 90 days. After 90 days , the child welfare agency
 loses legal custody. If the mother can t be located , the child has no legal status.
                                                                                      Without
 legal status , permanent placement cannot be made.


 In some instances , if no legal status for protective custody has been established , a hospital
 may have to release a baby upon the mother s request. In other cases , if the mother can
 be located , a hospital may lack legal authority to release a chid even to a relative.
 Babies lacking legal status can remain hospitalized afer being medically ready for
 discharge.

 Some cities are effectiely deag with the boarder baby problem.

 In the course of the Crack Babies inspection , some respondents raised the issue of boarder
. babies. In five cities (Los Angeles , Miami , New York City, San Francisco and Tacoma),.
  respondents report that they have boarder babies but are able to make timely placements.
 Four cities (Chicago, Newark, Philadelphia and Washington , D. C.) report that they are
 not able to make timely placements. Respondents in three cities in our sample (Fort
 Wayne , Oakland , and Phoenix) did not raise the issue.

 New York City reported a total of 12 954 boarder babies during the 31-month period
 February 1987 to August 1989. The number of boarder babies durg this period raged
 from 312 to 547 per month. At the same time the length of overstay in the hospital was
 reduced from 38 days to 5 days. (Overstay is defined as the number of days the. child
 remains hospitalized after being medically ready for discharge. ) New York City reports
 this reduced length of overstay is being maintained.

 In Miami , the number of boarder babies per day declined from 36 to 2 from March to
 June 1989. The average length of hospital overstay was reduced from 11.3 to 2.4 days.
..



     Page 3 - James O. Mason , M.

     Cities that are dealing with their boarder baby problem often use emergency foster care
     placements. These    placements , sometimes involving shifting babies from home to home
     can last up to 2 years before permanent foster care placements are made. Additionally,
     some cities report using congregate care, increased foster parent recruitment and training,
     media promotions ,   and special placement teams.
     RECOMMNDATIONS

     We found that boarder baby problems are serious but localized. Some cities have
     developed mechanisms for addressing this problem. We believe it should be possible to
     capitalize on these successes. We therefore recommend that:

            the Offce of Human Development Servces and the Public Health Servce identif
            effective practices in those cities which have reduced their boarder baby problem
            and disseminate this information to other cities which need it.

           the Public Health Servce support research on ways to reduce boarder baby hospital
           stays. This could be done , for example , through the Early Childhood Intervention
           program.

     implementation of these recommendations could result in reduction of     hospital overstays
     and faster placement of hoarder babies into appropriate care settings.

     In accordance with the Department' s confict resolution procedures , please provide a plan
     of action for implementing these recommendations within 60 days of          receiving this
     memorandum , or explain why it is not possible to do so.

     If you nave any questions , please call me or have your staff call Alan Levine at
     FrS 619- 3409.
t cl .




         Identical memo sent to the following:


         James O. Mason, M.
         Assistant Secretary
           for Health


         Martin Gerr
         Assistant Secretary for
           Planng and Evaluation

         Gail R. Wilensky, Ph.

         Administrator
         Health Cae Financing Admistration
